Ti

C@OCKLE

: E-Mail Address:
Le ga | Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

PENNY NICHOLS CORN; TWYLA JENNINGS,
Petitioners,
Vv.

MISSISSIPPI DEPARTMENT OF PUBLIC SAFETY;
ALBERT SANTA CRUZ, Individually and in his official
capacity as former Commissioner of the Mississippi
Department of Public Safety; MARSHALL FISHER,
In his official capacity as Commissioner of the
Mississippi Department of Public Safety,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4006 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of September, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Ws Chile
RENEE J. GOSS 9. ( heed rar ‘.
Notary Public

‘My Comm. Exp. September 5, 2023
Affiant

 

40159
